CERTIFICATE OF SERVICE
NO. TBD
Jerry Wiltz
Petitioner,
v.
State of Texas
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JERRY
WILTZ PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same by
Fedex 2-Day, prepaid for delivery to the following address.
Eric Kugler
Assistant District Attorney
Harris County District Attorney Office
500 Jefferson St.
Houston, TX 77002
(713) 274-5800
Counsel for State of Texas

Lucas DeDeus

February 23, 2021
SCP Tracking: Houthuijzen-917 Franklin St., Suite 230-Cover White

